UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




 Laptop Computer Accountability and
             Security


                Report No. OIG-AMR-59-09-01




                                              February 2009
INSPECTOR GENERAL




                NATIONAL LABOR RELATIONS BOARD

                        WASHINGTON, DC 20570

February 27, 2009

I hereby submit a review of Laptop Computer Accountability and Security,
Report No. OIG-AMR-59-09-01. This audit was conducted to determine
whether Agency-owned laptop computers are properly controlled and
configured to protect sensitive data.

We found that the Agency’s laptop computers are not properly controlled and
not all of the laptop computers are configured to protect sensitive data. In
general, the Office of the Chief Information Officer lacks a system of internal
control for the Agency’s laptop computers. As a result, there is a significant
risk of loss of equipment and, therefore, the data stored on that equipment.
Just as significant as the lack of internal control, we found that personnel who
are responsible for managing the laptop computers as an Agency asset lacked
an understanding of those duties.

In addition to the lack of internal control, during the course of the audit we
identified 21 laptop computers as either being lost, stolen, or otherwise
missing. We also found that two additional laptop computers had been
improperly removed from the electronic inventory system. Information
regarding these laptop computers was referred to the Office of Inspector
General investigative staff.

In his comments to the draft report, the Chief Information Officer stated that
17 of the 21 laptop computers that were missing were considered excess
equipment and ready for disposal. He also noted that the 17 laptop computers
were purchased prior to the Office of the Chief Information Officer being
relocated in the Agency’s organizational structure. While both of those points
may be accurate, our concern with that analysis is that management officials
cannot demonstrate that the loss of any one of the 17 missing laptop
computers occurred before the change in the organizational structure or after
the computer’s useful life.
                                       TABLE OF CONTENTS
BACKGROUND ......................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................2

FINDINGS ..............................................................................................3

LOST OR STOLEN LAPTOP COMPUTERS ...............................................3

CONTROLS OVER LAPTOP COMPUTERS ...............................................4
  Written Procedures..............................................................................4
  Receiving, Acceptance, and Inspection .................................................5
  Physical Control over Laptop Computers .............................................6
  Storage of Laptop Computers...............................................................7
  Physical Inventory ...............................................................................7
  Control Records...................................................................................7
   Entering Laptop Computers in HAT .....................................................7
   Purchases Information ........................................................................8
   Assignment Accuracy of HAT ............................................................10
   Other Assignment Errors Noted During the Audit................................10
   Laptop Computers Removed from HAT ..............................................10
  Segregation of Duties.........................................................................11
  Assignment of Accountable Property Officer.......................................11
INFORMATION SECURITY....................................................................12
  Encryption ........................................................................................12
  Commonly Accepted Security Configurations .....................................13
DONATED COMPUTER EQUIPMENT....................................................13
  Inconsistent Internal Documents and Records for Headquarters ........14
  Ineligible Recipients...........................................................................14
RECOMMENDATIONS..........................................................................15

ATTACHMENT .....................................................................................16

APPENDIX

        Memorandum from the Chief Information Officer "Laptop Computer
        Accountability and Security Draft Report" (OIG-AMR-59), dated
        February 20, 2009
                                 BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act of
1935, as amended. To assist in achieving that mission, the Agency procured
1,037 laptop computers between October 2004 and September 2007, at a cost
of approximately $1.4 million. The laptop computers have been deployed at the
Agency’s Headquarters and across the 51 field offices and 3 administrative law
judges satellite offices.

Within the Office of the Chief Information Officer (OCIO), responsibility for the
management of the laptop computers is assigned to the Associate Chief
Information Officer (CIO) for Customer Support. The Associate CIO for
Customer Support administers those duties by assignment of them to the
contractor who provides the OCIO’s Help Desk services. To track and record
information about individual laptop computers throughout their life cycle at
the Agency, the Help Desk contractor’s employees use a system called HEAT
Asset Tracker or “HAT.” “HEAT” is an acronym for Helpdesk Expert
Automation Tool.

Several high-profile incidents at other agencies have identified a lack of control
over laptop computers and the sensitive data maintained on them. On June
23, 2006, the Office of Management and Budget (OMB) issued Memorandum
06-16, Protection of Sensitive Agency Information. The memorandum identified
applicable National Institute of Standards and Technology criteria to be
followed and recommended steps that agencies should take that included
encrypting data on mobile computers and devices, use of two-factor
authentication, using a time-out function, and logging computer-readable data
extracts. Responsibility for the implementation of these procedures is assigned
to the Associate CIO for Information Technology (IT) Security.

Once a laptop computer has reached the end of its useful life at the Agency, it
is considered “excess” property and, at Headquarters, is transferred to the
Procurement and Facilities Branch (PFB) to be disposed of in accordance with
Government-wide procedures. Field offices dispose of excess property locally.
At the NLRB, the general practice has been to donate the excess laptop
computers to educational or charitable organizations.




                                         1
                 OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether Agency-owned laptop
computers are properly controlled and configured to protect sensitive data.
Our scope was laptop computers purchased or disposed of between October
2003 and March 2008.

We reviewed Government-wide laws, regulations, and policy documents
regarding property management and information security. We also reviewed
Agency policies and procedures to identify operating procedures and for more
detailed guidance of property management and information security practices.
We interviewed employees in the OCIO, the PFB, and the Help Desk contractor
to identify the operating procedures for the life cycle of laptop computers.

We obtained and reviewed accounting reports, requisition orders, purchase
orders, packing slips, and invoices for laptop computers purchased by the
Agency between October 1, 2003 and March 2008, to identify the universe of
laptop computers purchased by the Agency. We contacted the vendors and
shipping agents to obtain additional information regarding the laptop
computers.

We evaluated controls over laptop computers from the initial purchase through
disposal. We reconciled the Agency’s inventory of laptop computers to the
acquisition documentation. We also reviewed the Agency’s implementation of
the OMB memorandum regarding encryption and the standard security
configuration.

We evaluated HAT to determine whether it meets the Financial System
Integration Office, formerly known as the Joint Financial Management
Improvement Program (JFMIP), Property Management System Requirements.

This audit was performed in accordance with generally accepted government
auditing standards during the period June 2008 through January 2009. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We conducted this audit at NLRB
Headquarters in Washington, DC.




                                       2
                                   FINDINGS

The Agency’s laptop computers are not properly controlled and not all of the
laptop computers are configured to protect sensitive data. The OCIO is not
able to account for all of the laptop computers that it has purchased. The
process for receiving and deploying laptop computers is not documented in
policy documents. The system to monitor the inventory of laptop computers is
unreliable in that it lacks accuracy and is subject to improper manipulation.
There is also a lack of segregation of duties among the employees of the
contractor who operated the database that maintains the inventory of laptop
computers. The system used by the Associate CIO for IT Security to ensure
that laptop computers are encrypted is not reliable and the OCIO had not
implemented the Commonly Accepted Security Configurations, as required by
OMB.


LOST OR STOLEN LAPTOP COMPUTERS

Twenty-one laptop computers were identified as being either lost, stolen, or
missing. The situations involving these laptop computers are detailed below:

•   The Associate CIO for Customer Support identified two laptop computers
    that he believed were returned to the manufacturer for repair, but no
    records or supporting documentation exists to support that belief.

•   The Associate CIO for Customer Support identified one laptop computer,
    from the OCIO loaner pool, that was temporarily issued to an employee in
    July 2006, who then left the Agency in June 2007. HAT records show that,
    in December 2007, the laptop computer was reassigned from that former
    employee to storage. The laptop computer is now missing.

•   Inventories conducted in Regional Offices listed five laptop computers that
    were identified by Regional Office personnel as lost or missing.

•   Twelve laptop computers were identified as either “Missing/Research” or
    “Loss/Stolen” in a document titled “Inventory of Donated/Scrapped Items”
    that is maintained by the contractor’s database administrator.

•   One laptop computer was on a list of serial numbers from the manufacturer
    used to input information into HAT, but this laptop computer was not in
    HAT. Based on a review of invoices and related payments, it appears that
    the Agency paid for this laptop computer.

The Agency’s Administrative Policies and Procedures Manual (APPM) Chapter
PRO-1(A), Personal Property Management and Accountability, requires that the


                                         3
property custodian immediately notify the Chief, Security Branch, and the
Property Management Section upon discovery or awareness of any loss, theft,
or damage to Agency property. We could not locate any information that this
requirement was fulfilled until well after the initiation of this audit.
Independent of that action, information regarding these laptop computers is
being reviewed for possible investigation.

In his comments to the draft report, the CIO stated that 17 of the 21 laptop
computers that were missing were considered excess equipment and ready for
disposal. The CIO also noted that the 17 laptop computers were purchased
prior to the OCIO being relocated in the Agency’s organizational structure.
While both of those points may be accurate, our concern with that analysis is
that management officials cannot demonstrate that the loss of any one of the
17 missing laptop computers occurred before the change in the organizational
structure or after the computer’s useful life.


CONTROLS OVER LAPTOP COMPUTERS

Internal control serves as the first line of defense in safeguarding assets and
preventing and detecting errors and fraud. It should not be thought of as a
single event, but rather as a series of actions and activities that occur
throughout the operation of the Agency and on an ongoing basis.

The Agency did not utilize written procedures for managing laptop computers
throughout their life cycle. Because proper documentation was not
maintained, acceptance and inspection of laptop computers could not be
verified. Laptop computers were not stored in secured locations prior to
deployment or issuance to individual employees. Information regarding
individual laptop computers was not timely entered into HAT upon receiving
the laptop computers from the vendor and HAT was not maintained in a
manner that ensured an acceptable level of accuracy. The HAT database
administrator had the ability to input, change, and remove records from HAT.

Written Procedures

Internal control and all transactions and other significant events need to be
clearly documented, and the documentation should be readily available for
examination. Documentation of internal control procedures should appear in
management directives, administrative policies, or operating manuals.
The auditor met with representatives from the OCIO, Help Desk contractor,
and PFB between June 24 and July 9, 2008, to identify procedures related to
inventory management throughout the laptop computer life cycle. On July 16,
2008, the auditor requested that the Associate CIO for Customer Support
provide the standard operating procedures or desk manuals for this life cycle.


                                         4
On July 29, 2008, the Associate CIO for Customer Support responded to the
request for documentation of procedures by stating that there were no written
procedures and that the unwritten procedures that were used varied over time
based upon changing conditions.

On October 16, 2008, the Associate CIO for Customer Support provided the
Office of Inspector General (OIG) with written procedures. At that time, he
stated that an OCIO employee found an electronic copy of the procedures when
she was reviewing their network drive that they use to store electronic
documents. He also stated that he had not reviewed the document to
determine whether it reflects their current practices.

Without written procedures that are properly issued, there is a complete lack of
internal control and employees and contractors cannot be expected to know
how to correctly perform their duties.

Receiving, Acceptance, and Inspection

The Federal Acquisition Regulation (FAR) requires that a Government employee
inspect goods to ensure that they conform to the contract’s requirements and
to document the inspection and acceptance of the goods. The FAR also
requires that an agency have procedures and instructions for this function.
The Agency’s APPM has a provision that addresses inspecting and using the
Form NLRB-12 to note discrepancies and damage, but those procedures do not
address noting acceptance. The Agency’s record retention guidelines require
that such records be maintained for 2 years after the end of the fiscal year (FY)
that items were received.

Generally, computer shipments delivered to Headquarters were addressed to
the warehouse foreman. Upon receiving a shipment of laptop computers, the
warehouse employee contacted the OCIO to inform them of the delivery. The
Associate CIO for Customer Support then told the warehouse employee where
to deliver the equipment. No particular OCIO staff member was responsible for
acceptance or confirmation of the laptop computers that were delivered to
Headquarters and no documentation of the transfer between PFB and OCIO
took place.

Occasionally, a laptop computer was shipped to the Agency by a method that
resulted in delivery through the mailroom. Three deliveries of 15 laptop
computers were received by the mailroom and had an acknowledgment of
receipt.

Laptop computers delivered to field offices were either sent directly to the field
offices by the vendor or sent to Headquarters, and then deployed. When laptop
computers were sent directly from the vendor to the field office, personnel in


                                         5
the field office either called or sent an e-mail message to the OCIO Customer
Relations Manager to verify receipt. According to OCIO personnel, packing
slips for these shipments were to be maintained in the field offices.
We reviewed the OCIO and Finance files to determine if inspections of the
laptop computer shipments were conducted and how damage, discrepancies,
and acceptance were recorded. We were not able to locate any Form NLRB-12s
in those files. We did find, however, packing slips that had some indication of
inspection and acceptance. This is a summary of our effort to verify proper
inspections and acceptance:

•   We could not locate any packing slips for the 230 Dell D610 laptop
    computers that were purchased at the end of September 2005 and received
    in FY 2006. The invoices identify Headquarters as the delivery location.

•   During FY 2005, the OCIO purchased 11 other miscellaneous laptop
    computers and maintained the packing slips with notations for inspection
    and acceptance for each shipment.

•   Finance and the OCIO were able to provide packing slips for 309 of the 614
    Dell D820 laptop computers purchased at the end of FY 2006 and received
    in FY 2007. Some of these laptop computers were shipped to Headquarters
    and others were shipped directly to field offices. Only one packing slip for
    39 laptop computers showed any evidence of inspection and acceptance,
    which was in the form of checkmarks on the document. The document did
    not identify the person receiving the goods or the date this occurred.

•   Packing slips were located for all 182 Dell D830 laptop computers
    purchased at the end of FY 2007. The packing slips had some notation of
    acceptance for 176 of the 182 laptop computers. The notations consisted of
    checkmarks on the packing slip. The packing slips did not identify when or
    who performed the acceptance.

Because the OCIO is responsible for approving invoices for payment and
maintaining the inventory of the laptop computers, it would appear to be
reasonable that the documentation of acceptance and discrepancies should be
maintained by that office. By doing so, the OCIO would instill accountability
and have accurate and verifiable information to begin the process of controlling
the laptop computer inventory.

Physical Control over Laptop Computers

Standards for Internal Control in the Federal Government state that an agency
must establish physical control to secure and safeguard vulnerable assets.
Examples of appropriate physical controls include limiting access to equipment



                                         6
and inventories. It also includes the creation and maintenance of appropriate
control records to which the inventories can be compared.

Storage of Laptop Computers

Keys used to gain access to computer storage areas at Headquarters were kept
in an unsecure location. As a result, those areas were vulnerable to
unauthorized access. During the audit field work, we brought this issue to the
attention of OCIO staff and, because of the potential for loss, requested that
they properly secure the keys to the laptop computer storage areas.

Field offices were not instructed to keep the laptop computers shipped to them
in a locked area pending deployment. The Associate CIO for Customer Support
stated that field offices were instructed to not open any of the boxes. In
December 2006, OIG staff observed laptop computers awaiting deployment
being stored in an unsecured Regional Office conference room.

Physical Inventory

APPM Chapter PRO-1(A), Personal Property Management and Accountability,
states that property custodians are responsible for performing annual physical
inventories as appropriate for assigned property.

An inventory of field office equipment was conducted by the contractor
database administrator between March and July 2008. The inventory was
conducted by the contractor database administrator sending spreadsheets
generated from HAT listing the equipment assigned to the particular field
offices. Field office employees were instructed to verify the information in the
spreadsheet, identify changes that were needed, and send the spreadsheet
back to the database administrator. There was no verification of the
information provided by the field offices. Responses from six field offices could
not be located and, therefore, were not available for our review.

We were unable to find any records of a comprehensive physical inventory of
laptop computers that had been performed at Headquarters, and
documentation was not maintained for the limited work that was claimed to be
performed.

Control Records

Entering Laptop Computers in HAT

Information pertaining to the receipt of laptop computers was not recorded into
HAT in a timely manner. Date of delivery information was available for 398 of
the 1,037 laptop computers that were purchased between FY 2004 and March


                                         7
31, 2008. We compared the date that the HAT record was created for an
individual laptop computer to its delivery date. Based on the comparison, we
found that most of the 398 laptop computers were entered into HAT more than
a month after being received by the Agency. Details of our testing appear in
the table below:

                 Fiscal Year 2005 Fiscal Year 2006 Fiscal Year 2007
                    Dell D610        Dell D820        Dell D830
Time to          Number Percent Number Percent Number Percent
Record
Within 1 day            6      2.93           0                  22     12.16
Within 1                0                     0                  24     13.26
week
Within 1                8      3.90           1     8.33         73     40.33
month
More than 1           191     93.17          11    91.67         62     34.25
month
   Total              205    100.00          12   100.00        181    100.00


Given the lack of physical security over the laptop computers and the failure to
create and/or maintain evidence of acceptance and inspection, the failure to
initiate a timely control record creates a significant risk of loss to the Agency.

Purchases Information

For the Hewlett Packard Business Notebooks and Dell model D610, D810,
D820, and D830 laptop computers, we identified discrepancies between the
data in HAT and the purchase orders, shipping documents, and invoices we
reviewed. In all, we found 44 discrepancies. Because the Agency did not
maintain appropriate control records, much of the information used to resolve
these items was obtained directly from the manufacturer. The discrepancies
are outlined below:

Description                                                       Number
Serial numbers for laptop computers on an invoice that was
paid were not in HAT. The manufacturer provided the OIG
with information documenting that laptop computers with
different serial numbers were shipped to the Agency. Agency
records did not address the discrepancy.                                 24

Laptop computers replaced under warranty were removed
from HAT and there was no notation that the new laptop
computer was a replacement.                                              10



                                         8
Excessed laptop computers removed from HAT.                             3

Laptop computers purchased by the Agency that were not in
HAT, but were identified as being logged into the Agency
network.                                                                2

Laptop computers retained by the Agency when they should
have been returned to the vendor.                                       2

Laptop computers with no record showing they were received
by the Agency, but for which a record of payment exists.                1



We also discovered that, in May 2008, an OCIO employee directed that a Dell
D810 laptop computer that was in HAT be removed from HAT. The bar code
sticker was removed from the laptop computer and it was given to a
contractor’s employee to be excessed or to do what he wanted with it. When we
first made inquiries about the location of the laptop computer, the OCIO
employee could not recall any information regarding the laptop computer. The
next day, the OCIO employee informed us that the laptop computer had been
found. At that time, no mention was made that it had been in HAT and was
removed or that the bar code sticker had been removed. The OCIO employee
did state that the laptop computer had been abandoned by the vendor, that it
was an evaluation unit, and that he could do whatever he wanted with it.
Those assertions were not correct in that the Agency paid for the laptop
computer.

We later discovered misleading information related to the removal of the laptop
computer that was recorded in the HEAT Help Desk “tickets.” The information
on the ticket states that the Dell D810 laptop computer was an evaluation unit
that was removed from HAT and sent back to the vendor by the OCIO
employee.

We found that another laptop computer, a Dell D820, was also removed from
HAT after the OCIO employee again erroneously came to the determination that
the Agency had not purchased it. This time, the OCIO employee stated that he
was told that the vendor had no record of selling the laptop computer to the
Agency. In August 2008, the laptop computer was identified in HAT as
missing. After October 15, 2008, the record of the laptop computer was
removed from HAT. When we made an inquiry about the status of the laptop
computer in December 2008, the laptop computer was identified to us as one
that was being used by the OCIO. The OCIO employee could not explain how
or when this laptop computer ended up being used by the OCIO. The OCIO
employee explained to us that someone told him that the Agency had not


                                        9
purchased the laptop computer. He stated that the person had spoken to the
vendor’s representative and that the vendor had no record of selling the
computer to the Agency. Based on our review of the invoices and payments, we
determined that the Agency purchased and paid for this laptop computer.

Assignment Accuracy of HAT

A statistical sample of equipment in HAT as of August 22, 2008, was tested to
determine the accuracy of the laptop computer inventory. The database
contained 1,156 units. A 90 percent confidence rate resulted in a sample size
of 75 items. The 90 percent confidence level is consistent with Government
Accountability Office guidance and our expected deviation rate. The results of
our test can be projected to the population.

We compared the items in the sample to Systems Management Server (SMS)
reports that listed the laptop computers logged on to the Agency’s network and
received software updates. Items at Headquarters that were not on SMS scans
were physically inspected. We verified the existence of laptop computers in
field offices that were not in SMS scans with either office managers or
employees assigned the laptop computers.

HAT records were not accurate for 5 of the 75 (7 percent) laptop computers
tested. HAT showed one laptop computer assigned to an OCIO employee, but
the laptop computer was actually in a loaner pool in a Regional Office. One
laptop computer assigned to a Division of Judges loaner pool was permanently
assigned to an employee. A Regional Office sent one laptop computer to
Headquarters on May 14, 2008, to be excessed. HAT showed this laptop
computer assigned to the Regional Office as of August 22, 2008. In another
Regional Office, two laptop computers were transferred to another Government
agency on June 10, 2008, yet still appeared in the Agency’s inventory on
August 22, 2008.

Other Assignment Errors Noted During the Audit

In addition to the errors found in the statistical sample, while reviewing records
we found the following assignment errors:

•   Three laptop computers were removed from HAT, but in fact had been
    reassigned to Agency personnel and a contractor’s employee.

•   Seven laptop computers that had been assigned to a Headquarters employee
    had in fact been distributed to seven field office employees.

Laptop Computers Removed from HAT



                                         10
JFMIP-SR-00-4, Property Management System Requirements, states that
property management systems must record beginning balances, acquisitions,
and withdrawals. The system must also identify the type of transaction
affecting the property item, e.g., initial acquisitions, change in location, and
disposal.

The OCIO removed a laptop computer from HAT when it was excessed, when
one was replaced under warranty, and when one could not be found.
Removing equipment from HAT destroys the history of the transactions
involving the laptop computer and prevents maintenance of a control record.
The result is that there is no record in the inventory system that the Agency
ever owned the laptop computer and it is not possible to reconcile the actual
inventory of laptop computers to the expected inventory.

Segregation of Duties

Standards for Internal Control in the Federal Government state that key duties
and responsibilities need to be divided or segregated among different people to
reduce the risk of error or fraud. This should include separating the
responsibilities for authorizing transactions, processing and recording them,
reviewing the transactions, and handling any related assets.

Regional Office inventories were coordinated by the Help Desk contractor’s
employee who is the HAT database administrator. By having the database
administrator performing this function, a lack of segregation of duties exists
because the same person that is processing and recording transactions is also
reviewing them by performing the inventory.

The contractor’s HAT database administrator also inputted new laptop
computers into the HAT system and removed laptop computers from that
system when they were excessed. We found no records that documented the
review, verification, or approval of that action. The result is that this individual
has the ability to input or remove any laptop computer without detection by the
OCIO’s staff.

Another of the Help Desk contractor’s employees has the ability to process and
record activity related to excess equipment in HAT and handles the related
asset without the transaction being reviewed. There was no evidence that the
list of excessed equipment created by the contractor’s employee and provided to
the database administrator so that the equipment can be removed from HAT
was approved or verified by an OCIO employee.

Assignment of Accountable Property Officer




                                          11
APPM Chapter PRO-1(A) states that the Accountable Property Officer is
responsible for maintaining an unbroken audit trail for acquisition, receipt,
issue, transfer, and disposal of Agency property. The appointment is to be in
writing by the PFB Chief.

The Agency has not appointed an Accountable Property Officer for laptop
computers in a formal appointment document. The position description for the
Associate CIO for Customer Support, however, states that the person in that
position “[d]evelops and maintains a system for collecting, tracking/reconciling,
and updating a database of all IT resources (computers, peripherals, and
software licensing).” This responsibility is for all NLRB locations. The position
description is not a replacement for a written appointment.


INFORMATION SECURITY

Encryption

OMB Memorandum 06-16, Protection of Sensitive Agency Information, was
issued on June 23, 2006. This memorandum requires agencies, among other
things, to encrypt all data on mobile computers/devices which carry agency
data unless the data is determined to be non-sensitive.

The Agency implemented this memorandum through APPM Chapter IT-4,
Protection of Sensitive Agency Information, issued on July 31, 2007. This policy
states that all Agency laptop computers will have encryption software installed,
regardless of the sensitivity of the data stored on it.

Sixty-eight of the Agency’s laptop computers that were identified as being
“installed” were not encrypted. The Agency’s inventory consisted of 1,159
laptop computers on October 15, 2008. Of that number, 73 were either in
storage or in the process of being excessed. The list of encryption keys, which
documents laptop computers with encryption, provided by the IT Security
Office on October 9, 2008, included 1,018 laptop computers, leaving a balance
of 68 in the Agency’s inventory that were not encrypted. Of those 68 laptop
computers, 6 laptop computers may have been issued an exemption by the
OCIO from the encryption process.

We were unable to ascertain exactly which laptop computers were not
encrypted because the encryption key report does not identify the serial
number of the laptop computers. Instead, it uses the NetBIOS name as the
identifier and the NetBIOS names are not captured in HAT.

The procedure used by the IT security personnel to determine whether the
laptop computers being used are encrypted consists of obtaining a list of Dell


                                        12
Models D610, D820, and D830 from the HAT database administrator and
manually comparing this to a report provided by the encryption software
vendor. The computer NetBIOS name is compared to the customer
identification name. The weakness with this method is that it uses a manual
process to compare the NetBIOS name and the customer identification field,
and the two are not identical.

Another weakness with this process is that it relies on an incomplete inventory
of the Agency’s laptop computers. By May 15, 2008, any laptop computer that
was designated as obsolete by the OCIO was to be removed from use by Agency
personnel. Despite that directive, we found that 71 laptop computers that were
designated as obsolete were listed in HAT and categorized as “installed.” The
procedures described by the IT Security Office to ensure that laptop computers
were encrypted did not include reviewing reports that listed this obsolete, but
“installed” equipment.

Commonly Accepted Security Configurations

OMB Memorandum 07-11, Implementation of Commonly Accepted Security
Configurations for Windows Operating Systems, was issued on March 22, 2007.
This memorandum required agencies that either operate and/or plan to
upgrade to either Windows XP or Vista adopt the Commonly Accepted Security
Configurations (CASC) by February 1, 2008.

The Agency had not fully implemented the CASC. In August 2008, the
Associate CIO for IT Security said that a pilot project was being conducted at
one Regional Office and one Headquarters office. On October 31, 2008, the
Associate CIO for Customer Support identified an additional office that was
selected as a pilot for this initiative. At that time, the Associate CIO for
Customer Support said that the CASC have not been fully implemented. He
stated that the OCIO wanted to comply with the memorandum, but many of
the security settings do not allow some of the Agency applications to properly
execute.

In his comments to the draft report, the CIO stated that all but 18 of the more
than 600 security settings were implemented across the Agency in January
2009. The CIO also stated that the 18 security settings that were not
implemented were reported as an exception to OMB. We will evaluate the
implementation of these settings during the audit follow-up process.


DONATED COMPUTER EQUIPMENT

Executive Order 12999, issued on April 17, 1996, created a program that
directs agencies to give educationally useful excess Federal equipment to


                                        13
schools and nonprofit organizations. Agencies are either to give such excess
equipment directly to a school or nonprofit group or to the General Services
Administration for redistribution. This program has come to be known as
“Computers for Learning.”

Inconsistent Internal Documents and Records for Headquarters

When laptop computers are identified for disposition as excess equipment, a
Help Desk contractor’s employee prepares a schedule of this property and
sends it via an e-mail message to another Help Desk contractor’s employee to
open a service ticket. That person also sends an e-mail message to PFB’s
warehouse unit with a list of equipment to be donated that is then to be used
to compare to the property actually delivered to the warehouse.

The Help Desk contractor’s employee who creates these schedules maintains
copies of them, but does not save the related e-mail messages. The database
administrator, also a Help Desk contractor’s employee, accumulates and
compiles the information from the service tickets on a spreadsheet and later
removes the laptop computers from HAT either in a large group or once a
month depending on the volume of activity. PFB maintains receipts from
organizations that receive the excessed laptop computers from Headquarters.
These three pieces of information should be in agreement.

We identified nine laptop computers that should have been included in the e-
mail messages sent to the Help Desk that were not located in the records
maintained by the database administrator. Six of these were in the records
maintained by PFB. We identified 38 laptop computers that were in the
database administrator’s records that were not located in PFB records as
donated. Seven of these were in the records maintained by the contractor’s
employee who identifies the equipment for disposition. We also identified 14
laptop computers that were in the PFB records that were not in the database
administrator’s records. Six of these were in the records maintained by the
contractor’s employee who identifies the equipment for disposition.

Ineligible Recipients

We identified two computer equipment recipients that were ineligible to
participate in the Computers for Learning program. They were ineligible
because they were either not non-profit organizations registered with the
Internal Revenue Service or were not educational organizations.

Staff in PFB stated that it is difficult for them to find educational or non-profit
groups willing to take excess computer equipment from Headquarters. It was
their observation that schools in the metropolitan District of Columbia region



                                          14
have access to an extensive amount of excess computer equipment and the
Agency’s equipment is not competitive.


                           RECOMMENDATIONS

We recommend that the Chief Information Officer:

  1. Develop and maintain a system or process that will provide proper
     internal control over the Agency’s laptop computers throughout their
     asset life cycle. This system should include written procedures and a
     method for ensuring that the procedures are followed. Additionally, the
     OCIO should consider obtaining inventory control software to assist in
     the process. At a minimum, the actions implementing this
     recommendation must conform to the Standards for Internal Control in
     the Federal Government and the JFMIP requirements.

  2. Encrypt all laptop computers that are in use by Agency personnel.

  3. Develop and maintain a system that will ensure that all laptop
     computers in use by Agency personnel are encrypted.

  4. Implement Commonly Accepted Security Configurations in conformance
     with OMB Memorandum 07-11.

  5. Obtain training on the Standards of Ethical Conduct for Employees of
     the Executive Branch for the OCIO personnel in the areas of the use of
     Government property and dealing with outside sources.

  6. Obtain training on information technology asset control for the OCIO’s
     Customer Support Section personnel.




                                      15
                                                                    ATTACHMENT
                            JFMIP REQUIREMENTS

The Financial Systems Integration Office, formerly known as the JFMIP,
published the Property Management System Requirements (JFMIP-SR-00-4) in
October 2000. This document identifies functional requirements for property
management systems for data systems used to manage both capitalized and
expensed property.

HAT does not meet 6 of the 10 applicable requirements. A table showing the
JFMIP 12 mandatory requirements and whether HAT meets those requirements
is shown below.

                                                                   Meets
Requirement                                                        Requirement
1. Record beginning balances, acquisitions, and withdrawals        No
and calculate ending balances expressed in values and
physical units, except for heritage assets and stewardship
land for which all end-of-period balances are expressed in
physical units only.
2. Capture the condition of the asset for heritage assets,         N/A
stewardship land, national defense property, plant and
equipment (PP&E), and general PP&E for which a condition
assessment was performed.
3. Provide edits (controls) to prevent duplication and reduce      Yes
the likelihood of creating erroneous property documents and
records to ensure the integrity of data recorded in the
system.
4. Permit only authorized users to enter, modify, or               No
otherwise alter property records.
5. Provide an audit trail for entries to a property record,        No
including identification of individuals entering or approving
information and data.
6. Identify the type of transaction affecting the property item,   No
e.g., initial acquisition, change in location, and disposal.
7. Incorporate adequate security features that prevent             Yes
unauthorized access to the property system by unauthorized
individuals.
8. Enable the transfer of responsibility for property from one     Yes
authorized manager to another authorized manager.



                                                                   Meets


                                         16
Requirement                                                     Requirement
9. Capture real property information for General Services       N/A
Administration’s worldwide inventory system as directed in
Federal Property Management Regulation 102-84 (property
management only).
10. Produce reports in accordance with user-defined criteria.   Yes
11. Capture the fact that an environmental or hazardous         No
substance is located on or contained within a property item,
in accordance with 41 CFR 101-42.202.
12. Distinguish between capitalized property and expensed       No
property tracked in the property management system.




                                        17
APPENDIX
